                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E., 3W-300
                                                      Washington, DC 20002




            AMTRAK EMPLOYEES FAILED TO LIST FELONY CONVICTIONS
                               JULY 17, 2012
                            CASE # DC-11-0338


Based on information received by Amtrak CEO Joseph Boardman, the OIG, Amtrak Police
Department, and Amtrak management coordinated an investigation of illegal drug and alcohol
use on Amtrak trains. No alcohol or drug use was found; however, the investigation disclosed
that several on-board service employees failed to list felony convictions as required on their
employment applications, and background checks were not conducted on some on-board service
employees. OIG made recommendations to management in the areas of random drug testing and
background security screenings.
